TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                     Business Taxpayers Were Effectively
                     Transitioned to Electronic Payments;
                    However, They Were Not Always Timely
                    Contacted When Payments Were Missed



                                         August 17, 2012

                              Reference Number: 2012-30-092




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-622-6500
 E-mail Address | TIGTACommunications@tigta.treas.gov
 Website        | http://www.tigta.gov
                                                 HIGHLIGHTS


BUSINESS TAXPAYERS WERE                              electronic deposit requirements. For example, it
EFFECTIVELY TRANSITIONED TO                          publicly released Program details on the
ELECTRONIC PAYMENTS; HOWEVER,                        IRS.gov website, through trade publications and
THEY WERE NOT ALWAYS TIMELY                          webinars, and at presentations at the IRS
                                                     Nationwide Tax Forums.
CONTACTED WHEN PAYMENTS WERE
MISSED                                               In November 2010, prior to the proposed
                                                     regulation taking effect, the IRS issued an
                                                     Intention Letter to 3.8 million business taxpayers
Highlights                                           who would be affected by the proposed
                                                     regulation change. In December 2010, a
Final Report Issued on August 17, 2012               Mandate Letter was issued to 1.4 million
                                                     business taxpayers who still had not activated
Highlights of Reference Number: 2012-30-092          their enrollment in the EFTPS or who continued
to the Internal Revenue Service Commissioners        to make deposits with an FTD coupon. The
for the Small Business/Self-Employed Division        Letters informed the business taxpayers about
and the Wage and Investment Division.                the electronic deposit regulation and possible
                                                     penalties if they failed to comply.
IMPACT ON TAXPAYERS
                                                     However, revenue officers (RO) did not always
The Electronic Federal Tax Payment System            contact business taxpayers in a timely manner
(EFTPS) is a tax payment system that allows          after receiving FTD Alert assignments. TIGTA
business and individual taxpayers to pay their       reviewed a statistically valid sample of 96 high
Federal taxes electronically via the Internet or     priority FTD Alert cases and found that the FTD
telephone 24 hours a day, seven days a week.         Alerts were not always promptly assigned to the
The IRS effectively communicated the electronic      ROs and/or the ROs did not make timely contact
deposit regulation to business taxpayers, but it     with business taxpayers after the FTD Alert was
did not always timely contact business taxpayers     assigned. Also, the case documentation did not
when payments were missed. Business                  include explanations for the delays. Business
taxpayers who are not contacted timely accrue        taxpayers paid less penalties and interest when
more interest and penalties and are not treated      an FTD Alert was immediately assigned to an
equitably with business taxpayers who are            RO and the business taxpayer was contacted
promptly contacted.                                  within 15 calendar days of the FTD Alert being
                                                     assigned.
WHY TIGTA DID THE AUDIT
                                                     WHAT TIGTA RECOMMENDED
Effective January 1, 2011, businesses not
already required to use the EFTPS must now           TIGTA recommended that the IRS establish
make their Federal Tax Deposit (FTD) payments        criteria for timely group manager assignment of
electronically. The FTD Alert Program identifies     FTD Alerts to ROs and emphasize to group
at an early stage, i.e., before the return is due,   managers that they should ensure ROs contact
business taxpayers who have fallen behind in         business taxpayers within 15 calendar days of
their deposits. This audit was initiated to assess   FTD Alert assignment.
whether the IRS is effectively managing the
EFTPS and FTD Alert Programs.                        In their response to the report, IRS officials
                                                     agreed with the recommendations and plan to
WHAT TIGTA FOUND                                     take appropriate corrective actions. The IRS
                                                     plans to establish specific criteria and update the
The IRS took positive steps to communicate and       appropriate Internal Revenue Manual sections to
educate business taxpayers about the electronic      ensure timely group manager assignment of
deposit regulation that took effect on               FTD Alerts to ROs. The IRS also plans to issue
January 1, 2011. Additionally, the IRS               guidance to ROs to emphasize the importance
developed and implemented communication              of timely assignment and contact of FTD Alerts.
plans to educate business taxpayers about the
                                               DEPARTMENT OF THE TREASURY
                                                    WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                               August 17, 2012


 MEMORANDUM FOR COMMISSIONER, SMALL BUSINESS/SELF-EMPLOYED
                DIVISION
                COMMISSIONER, WAGE AND INVESTMENT DIVISION


 FROM:                           Michael E. McKenney
                                 Acting Deputy Inspector General for Audit

 SUBJECT:                        Final Audit Report – Business Taxpayers Were Effectively
                                 Transitioned to Electronic Payments; However, They Were Not Always
                                 Timely Contacted When Payments Were Missed (Audit # 201130013)

 This report presents the results of our review to determine whether the Internal Revenue Service
 effectively managed the Electronic Federal Tax Payment System1 and Federal Tax Deposit Alert
 Programs. This audit was part of our Fiscal Year 2011 Annual Audit Plan and addresses the
 major management challenge of Tax Compliance Initiatives.
 Management’s complete response to the draft report is included in Appendix VI.
 Copies of this report are also being sent to the Internal Revenue Service managers affected by the
 report recommendations.
 Please contact me at (202) 622-6510 if you have questions or Frank Dunleavy, Acting Assistant
 Inspector General for Audit (Compliance and Enforcement Operations), at (213) 894-4470
 (Ext. 128).




 1
     See Appendix V for a glossary of terms.
                               Business Taxpayers Were Effectively Transitioned to
                              Electronic Payments; However, They Were Not Always
                                 Timely Contacted When Payments Were Missed




                                            Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 4
          Business Taxpayers Were Effectively Transitioned
          From Federal Tax Coupons to Electronic Payments .................................... Page 4
          Improvements Can Be Made to Promptly Contact
          Business Taxpayers When Payments Are Missed ........................................ Page 5
                    Recommendations 1 and 2: ................................................ Page 8


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 9
          Appendix II – Major Contributors to This Report ........................................ Page 11
          Appendix III – Report Distribution List ....................................................... Page 12
          Appendix IV – Outcome Measures............................................................... Page 13
          Appendix V – Glossary of Terms ................................................................. Page 15
          Appendix VI – Management’s Response to the Draft Report ...................... Page 17
         Business Taxpayers Were Effectively Transitioned to
        Electronic Payments; However, They Were Not Always
           Timely Contacted When Payments Were Missed




                   Abbreviations

EFTPS        Electronic Federal Tax Payment System
FTD          Federal Tax Deposit
FY           Fiscal Year
IRM          Internal Revenue Manual
IRS          Internal Revenue Service
RO           Revenue Officer
SB/SE        Small Business/Self-Employed
                           Business Taxpayers Were Effectively Transitioned to
                          Electronic Payments; However, They Were Not Always
                             Timely Contacted When Payments Were Missed




                                            Background

The Electronic Federal Tax Payment System (EFTPS)1 is a tax
payment system provided free by the U.S. Department of the       The EFTPS allows business
                                                                 and individual taxpayers to
Treasury. Using the EFTPS to make Federal tax deposits             pay their Federal taxes
provides substantial benefits to both taxpayers and the Federal     electronically via the
Government. The EFTPS allows business and individual                Internet or telephone
taxpayers to pay their Federal taxes electronically via the      24 hours a day, seven days
Internet or telephone 24 hours a day, seven days a week. The               a week.
System helps taxpayers schedule dates to make payments due
even when they are out of town or on vacation. Business users can use the EFTPS to schedule
payments up to 120 calendar days in advance of the desired payment date. In addition, compared
to manual processing, the EFTPS significantly reduces payment-related errors that could result in
a penalty.
Prior to January 1, 2011, business taxpayers were mandated to make Federal Tax Deposits (FTD)
electronically only if their aggregate annual deposits exceeded $200,000; however, any business
taxpayer could voluntarily use the EFTPS. Business taxpayers who exceeded the $200,000
threshold had an initial one-year grace period after which they were required to use the EFTPS in
all subsequent years, even if their FTDs fell below the threshold. Effective January 1, 2011,
businesses that have a deposit requirement (such as employment tax, excise tax, and corporate
income tax) can no longer use Forms 8109 and 8109-B, Federal Tax Deposit Coupon, and are
required to make their FTD payments electronically.2
To help alleviate any potential burden on small businesses, the regulations did not change the
existing de minimis deposit rules allowing business taxpayers with tax liabilities under certain
thresholds to make a payment with a return. For example, under the de minimis deposit rules for
employment taxes, an employer with a deposit liability of less than $2,500 for a tax period may
remit employment taxes with their quarterly or annual tax return, voluntarily make deposits using
the EFTPS, or use other methods of payment as provided by the instructions relating to the
return.
Business taxpayers who fail to make the electronic payments, when required, are subject to an
FTD penalty of 10 percent for each nonelectronic payment. However, the Internal Revenue
Service (IRS) established penalty relief plans to allow business taxpayers a limited period of time
to convert to the EFTPS without being penalized if they had problems with the conversion. This


1
    See Appendix V for a glossary of terms.
2
    Treasury Decision 9507 (REG-153340-09), (Dec. 7, 2010).
                                                                                            Page 1
                               Business Taxpayers Were Effectively Transitioned to
                              Electronic Payments; However, They Were Not Always
                                 Timely Contacted When Payments Were Missed



effort included business taxpayers who mailed or improperly paid their liability with their return,
and business taxpayers who made late deposits via the EFTPS (up to three calendar days).
Since the implementation of the EFTPS in Calendar Year 1996, there have been more than
1.7 billion electronic payments made, totaling more than $25.13 trillion. Daily EFTPS
transactions average $6 billion, while peak days can total $40 billion. Annually, the EFTPS
processes more than $1.9 trillion in funds to the U.S. Government account. In addition, the
number of taxpayers using electronic methods to make payments has steadily increased.
Figure 1 shows that electronic payments increased from 43 percent of all payments in Fiscal
Year (FY) 2008 to 60 percent in FY 2011.
                    Figure 1: Percentage of Electronic Payments Compared
                     to All Sources of Revenue for FYs 2008 Through 2011

                                                FY 2008          FY 2009         FY 2010         FY 2011 

           Total Number of Payments:   
                   All Sources                227,484,559 212,100,185 212,767,563  217,097,697 

               Electronic Payments             98,397,976     100,811,301 108,848,929  129,835,107 
                    Percentage                    43%             48%             51%              60% 
        Source: IRS EFTPS reports for FYs 2008 through 2011.

The IRS has an FTD Alert Program to identify, at an early stage, business taxpayers3 who have
fallen behind in their tax deposits. The Program verifies the employer’s compliance with
employment tax filing requirements and directly sends an FTD Alert from the Master File to the
Integrated Collection System for direct assignment to the field. Once a group manager assigns
an FTD Alert to a revenue officer (RO), the RO is required to contact the business taxpayer
within 15 calendar days. FTD Alerts provide an early opportunity for the IRS to assist and
educate business taxpayers before their liability pyramids and the growing debt becomes more
difficult to resolve.
In Calendar Year 2011, the IRS conducted two studies to evaluate the effectiveness of the FTD
Alert Program. One study4 focused on using a letter to notify business taxpayers of the FTD
Alert to determine if letters would be an effective preventive tool to improve Form 941,
Employer’s Quarterly Federal Tax Return, filing and payment compliance. The IRS found that
for high-priority FTD Alerts, live contact by an RO was more effective in obtaining business
taxpayer compliance than a letter. The results for low-priority FTD Alerts were inconclusive.
The overall results of this study prompted a pilot program, which started in March 2012.



3
    There is no similar program for individual or estate and trust taxpayers.
4
    Small Business/Self-Employed Division Denver Research Office, FTD Soft Letter Project, (Jul. 2011).
                                                                                                            Page 2
                         Business Taxpayers Were Effectively Transitioned to
                        Electronic Payments; However, They Were Not Always
                           Timely Contacted When Payments Were Missed



The results of the other study5 found that business taxpayers were assessed, on average, fewer
Failure to Pay and Failure to File penalties when the FTD Alerts were worked by an RO in
comparison to FTD Alerts that were not assigned. The study also showed that 40 percent of the
high-priority FTD Alerts that were worked by an RO resulted in business taxpayer compliance
compared with a 28 percent compliance rate when the FTD Alerts went unassigned.
This review was performed at the Small Business/Self-Employed (SB/SE) Division Campus
Compliance Services Office in New Carrollton, Maryland, and campuses in Memphis,
Tennessee, and Ogden, Utah, during the period May 2011 through March 2012. We conducted
this performance audit in accordance with generally accepted government auditing standards.
Those standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our audit
objective. We believe that the evidence obtained provides a reasonable basis for our findings
and conclusions based on our audit objective. Detailed information on our audit objective,
scope, and methodology is presented in Appendix I. Major contributors to the report are listed in
Appendix II.




5
 Small Business/Self-Employed Division Laguna Niguel Research Office, The Impact of FTD Alerts on
Compliance, (Jul. 2011).
                                                                                                    Page 3
                       Business Taxpayers Were Effectively Transitioned to
                      Electronic Payments; However, They Were Not Always
                         Timely Contacted When Payments Were Missed




                                 Results of Review

Our review results showed that the IRS took positive steps to communicate and educate business
taxpayers about the electronic deposit regulation that took effect on January 1, 2011. We found
that business taxpayers were effectively transitioned to the EFTPS. However, the FTD Alert
Program can be improved to reduce business taxpayer burden if business taxpayers are timely
contacted when payments are missed.

Business Taxpayers Were Effectively Transitioned From Federal Tax
Coupons to Electronic Payments
The IRS developed and implemented formal communication plans to educate business taxpayers
about the new electronic deposit requirements. For example, IRS publicity provided program
details via the IRS.gov website, trade publications, webinars, IRS Nationwide Tax Forums, and
practitioner meetings. Briefings were also conducted with the International Communication and
Liaison Office which, in turn, provided information to the State Department in order to notify
impacted foreign business taxpayers.
In November 2010, prior to the implementation of the regulation change, the IRS issued
Letter 4631, Intention Letter, to 3.8 million business taxpayers who would be affected.
Letter 4631 informed the business taxpayers that they had been automatically pre-enrolled in the
EFTPS and provided a personal identification number to activate their enrollment. Letter 4631
also indicated that business taxpayers may be required to make electronic deposits and may be
penalized if they failed to make their deposits electronically.
In December 2010, Computer Paragraph 247 notice, Mandate Letter, was issued to 1.4 million
business taxpayers (of the initial 3.8 million) who still had not activated their enrollment in the
EFTPS, or who continued to make deposits with an FTD coupon in the 18 months prior to the
approved regulation. The Mandate Letter informed the business taxpayers that, effective
January 1, 2011, they could no longer use an FTD coupon to make their deposits and must make
their deposits electronically. The Mandate Letter again advised the business taxpayers that a
penalty for each nonelectronic deposit would be assessed.
In April 2011, reminder postcards were sent to business taxpayers who continued to mail FTD
coupons after the regulation took effect. The postcard reminded business taxpayers that they
were pre-enrolled in the EFTPS and were required to make their deposits electronically.
Servicewide Electronic Research Program alerts were prepared to notify IRS telephone assistors
regarding the implementation of the electronic payment regulation so they could answer


                                                                                             Page 4
                          Business Taxpayers Were Effectively Transitioned to
                         Electronic Payments; However, They Were Not Always
                            Timely Contacted When Payments Were Missed



questions from business taxpayers. In addition, staffing at the EFTPS call sites was increased to
address additional volumes of depositors and provide assistance to business taxpayers.
As a result of the mandate to require business taxpayers to use the EFTPS for all Federal tax
deposits, the number of business taxpayers enrolled in the EFTPS increased by 92 percent by the
end of FY 2011. However, despite the IRS’s efforts to communicate and educate business
taxpayers about the electronic deposit requirements, some business taxpayers continued to make
their payments with FTD coupons. During our review, the IRS informed us that some business
taxpayers were continuing to submit FTD coupon payments to an IRS-designated post office
box6 that was scheduled to close on July 1, 2011. As of June 30, 2011, approximately
42,000 business taxpayers were still mailing their FTD coupon payments to the IRS-designated
post office box. The IRS was not tracking these business taxpayers individually or sending
follow-up notifications informing them of the planned closure of the post office box.
Management Action: During our review, IRS management delayed the closure of the post
office box to December 31, 2011, and began identifying the business taxpayers making the FTD
coupon payments. In October 2011, the IRS began sending these business taxpayers letters
reminding them of the electronic tax deposit requirements and informing them that the post
office box would be closing and any subsequent payments would be returned. Between July 1
and September 30, 2011, 5,245 business taxpayers had submitted FTD coupon payments totaling
$15.2 million to the IRS-designated post office box. IRS management informed us the payments
were processed and letters were sent to any business taxpayer who mailed in these payments.
In December 2011, the IRS identified the largest depositors from the 5,245 business taxpayers
who submitted FTD coupon payments to the IRS-designated post office box. IRS management
informed us that they attempted to make direct telephone contact with 100 business taxpayers
who made deposits of $5,000 or more to determine if there were problems preventing them from
using the EFTPS. Most of the business taxpayers contacted had started using the EFTPS after
receiving a notice. The remaining business taxpayers indicated they would begin using the
EFTPS.

Improvements Can Be Made to Promptly Contact Business Taxpayers
When Payments Are Missed
The IRS established the FTD Alert Program to proactively assist business taxpayers to remain
compliant with their FTD payment requirements. The FTD Alert process identifies at an early
stage, i.e., before the return is due, business taxpayers who have fallen behind in their deposits.
FTD Alerts are used to determine an employer’s compliance with current employment tax
deposit requirements and for subsequent quarters until the business taxpayer becomes compliant.


6
 The SB/SE Division uses post office boxes for the public to send general and revenue-bearing mail, including the
FTDs.
                                                                                                           Page 5
                            Business Taxpayers Were Effectively Transitioned to
                           Electronic Payments; However, They Were Not Always
                              Timely Contacted When Payments Were Missed



The Master File computer program identifies an employer’s quarterly compliance with
employment tax deposit requirements and categorizes the noncompliance under three types of
classifications – an FTD Alert priority code A, B, or C. The type of FTD Alert issued is based
on whether the business taxpayer has had compliance issues in prior tax periods and whether the
outstanding balances exceed $5,000. For example, FTD Alert:
        Priority codes A and B are sent directly from the Master File to the Integrated Collection
         System for direct assignment to the field.
        Priority code C is low priority and not worked or assigned to IRS field offices because
         the IRS expects the business taxpayer to voluntarily comply without any IRS
         intervention.
For the FTD Alert Program to be effective, group managers must assign FTD Alerts
expeditiously, and ROs must promptly make contact with the business taxpayer. Once a
Collection Field function group manager assigns the FTD Alert to an RO, the RO should contact
the business taxpayer within 15 calendar days.
We reviewed a sample of 96 FTD Alert priority code A and B cases issued between
January 1, 2009, and December 31, 2010.7 Our review showed that FTD Alerts were not always
timely assigned to ROs. Specifically, 17 (17.7 percent) of the 96 cases took 11 to 34 calendar
days from FTD Alert issuance to RO assignment.8 These 17 cases accrued penalties, interest,
and fees totaling $139,587, which is an average of $8,211 per business taxpayer. This
assessment compares with an average of $3,663 in accrued penalties, interest, and fees paid by
business taxpayers whose FTD Alerts were timely assigned and who were timely contacted.
Immediate assignment of an FTD Alert to an RO for business taxpayer contact can reduce the
amount of penalties and interest the business taxpayer pays. Based on our statistically valid
sample, we project that 3,954 cases were not assigned in a timely manner, and we are 95 percent
confident that the range of potential cases is between 2,244 and 5,664.9
Additionally, we determined that the ROs did not always contact business taxpayers in a timely
manner after receiving FTD Alert priority code A and B assignments. We identified eight cases
(8.3 percent) in which the business taxpayer was not contacted until 16 to 56 calendar days after
the FTD Alert was assigned. The documentation for each of these cases did not offer
explanations for the delays. The business taxpayers, after being contacted by the ROs, paid
accrued penalties, interest, and fees totaling $47,671, which is an average of $5,959 per business
taxpayer (compared with $3,663 for business taxpayers whose FTD Alerts were timely assigned

7
  A valid statistical sample of 96 FTD Alert priority code A and B cases was selected from a population of
22,327 FTD Alerts issued between January 1, 2009, and December 31, 2010, and based on a confidence level of
95 percent, a percent precision level of ± 10 percent, and an expected error rate of 50 percent.
8
  We considered FTD Alerts assigned up to 10 calendar days after FTD Alert issuance to have been assigned timely.
9
  To project the results of our statistical sample, we used a 95 percent confidence level, a 17.7 percent error rate, and
a 7.66 percent precision factor.
                                                                                                                 Page 6
                            Business Taxpayers Were Effectively Transitioned to
                           Electronic Payments; However, They Were Not Always
                              Timely Contacted When Payments Were Missed



and who were timely contacted). Based on our statistically valid sample, we project that 1,861
business taxpayers were not contacted within the required 15-calendar-day period, and we are
95 percent confident that the range of potential business taxpayers is between 622 and 3,099.10
Figure 2 shows the comparative results between timely and untimely FTD Alert assignment and
business taxpayer contact.
                       Figure 2: Comparison of Timely and Untimely
                    FTD Alert Assignment and Business Taxpayer Contact

                                                     Untimely           Untimely          Timely Assigned
                                                    Assignment          Contact            and Contacted
                                                      Cases              Cases                Cases11

      Number of Cases                                     17                  8                     38
      Accrued Penalties, Interest,                    $139,587           $47,671                $139,198
      & Fees
      Average Penalties, Interest,                      $8,211            $5,959                 $3,663
      & Fees
      Average Days From FTD Alert                         29                 37                     13
      Generation to Business Taxpayer
      Contact
     Source: Analysis based on review of IRS-provided FTD Alerts, Integrated Collection System case history,
     and Integrated Data Retrieval System research.

Internal Revenue Manual (IRM)12 guidance is specific about how much time an RO has to
contact a business taxpayer after he or she receives an FTD Alert (15 calendar days after
assignment). However, group managers did not always ensure business taxpayers were being
timely contacted by the RO or that the case histories reflected reasons for delays. The IRM does
not provide specific timeliness criteria for when a group manager should assign the FTD Alert to
an RO.
The IRS Office of Research conducted a study13 and concluded that as more time elapses before
an individual makes at least one payment, it becomes less likely that they will do so at any


10
   To project the results of our statistical sample, we used a 95 percent confidence level, an 8.3 percent error rate,
and a 5.55 percent precision factor.
11
   The remaining 33 FTD Alert cases were either not assigned, already assigned to an RO due to an existing balance
due condition, the business taxpayer was no longer liable, or the business taxpayer made payments before contact
was attempted.
12
   IRM 5.7.1.4 (Nov. 19, 2010).
13
   U.S. Department of the Treasury, IRS, Publication 1500, The IRS Research Bulletin, (Rev. 11-99).
                                                                                                              Page 7
                             Business Taxpayers Were Effectively Transitioned to
                            Electronic Payments; However, They Were Not Always
                               Timely Contacted When Payments Were Missed



subsequent time. Furthermore, the IRS studies we cited14 earlier in this report found that
business taxpayers were assessed fewer penalties when the FTD Alerts were worked by an RO in
comparison to FTD Alerts that were not assigned. The longer the IRS delays business taxpayer
contact, the higher the possibility the business taxpayer will not make the required payment, and
the greater the amount of penalties and interest the business taxpayer will accrue. Penalties and
interest continue to accrue until the delinquency is resolved.
Management Action: On March 12, 2012, the IRS initiated a Soft Letter Notice Pilot Process.
This initiative will measure the effectiveness of sending written correspondence as a means to
contact FTD Alert priority code B and C business taxpayers in an attempt to educate and resolve
the identified issues, prior to the account becoming a FTD Alert priority code A.

Recommendations
The Director, Collection Policy, SB/SE Division, should:
Recommendation 1: Establish criteria for timely group manager assignment of FTD Alerts to
the ROs.
           Management’s Response: IRS management agreed with this recommendation. The
           IRS will establish specific criteria and update the appropriate IRM sections to ensure
           timely group manager assignment of FTD Alerts to ROs.
Recommendation 2: Emphasize to group managers that they should ensure the ROs contact
business taxpayers within 15 calendar days of FTD Alert assignment.
           Management’s Response: IRS management agreed with this recommendation. The
           IRS will issue guidance to the field ROs to emphasize the importance of timely
           assignment and contact of FTD Alerts as directed by the IRM.




14
     See page 2 of the Background section of this report.
                                                                                           Page 8
                            Business Taxpayers Were Effectively Transitioned to
                           Electronic Payments; However, They Were Not Always
                              Timely Contacted When Payments Were Missed



                                                                                      Appendix I

            Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine whether the IRS is effectively managing
the EFTPS1 and FTD Alert Programs. To accomplish the objective, we:
I.         Determined whether the EFTPS Program is effectively transitioning business taxpayers
           from Federal tax coupons to electronic payments.
           A. Identified and reviewed the new requirement for business taxpayers to deposit taxes
              electronically effective January 1, 2011.
           B. Interviewed SB/SE Division analysts to determine the actions taken by the IRS to
              notify business taxpayers of the requirement to deposit taxes electronically that was to
              take effect on January 1, 2011, and obtained the 3.8 million population of business
              taxpayers affected by the electronic payment requirements.
           C. Obtained the population of 1.4 million business taxpayers who still had not activated
              their enrollment in the EFTPS, or who continued to make deposits with an FTD
              coupon in the 18 months prior to the approved regulation.
           D. Obtained a list of 5,245 business taxpayers who submitted FTD coupon payments
              totaling $15.2 million to an IRS-designated post office box between July 1 and
              September 30, 2011, that was scheduled to close on December 31, 2011. We
              determined the actions taken by the IRS to notify those business taxpayers who
              continued mailing their FTD coupon payments to the post office box that was being
              closed.
II.        Determined whether the FTD Alert Program resulted in the timely assignment of cases to
           the field and effectively brought the delinquent business taxpayers back into compliance.
           A. Identified and reviewed the applicable FTD Alert IRM2 and interim guidance.
           B. Interviewed IRS management about the purpose and objective of the FTD Alert
              Program for business taxpayers, studies performed to improve the FTD Alert Program
              and ensure that business taxpayers remain in tax compliance, and whether the FTD
              Alert Program should be expanded.
           C. Reviewed a valid statistical sample of 96 FTD Alert priority code A and B cases, and
              96 FTD Alert priority code C cases issued from January 1, 2009, to

1
    See Appendix V for a glossary of terms.
2
    IRM 5.7.1 (Nov. 19, 2010).
                                                                                               Page 9
                      Business Taxpayers Were Effectively Transitioned to
                     Electronic Payments; However, They Were Not Always
                        Timely Contacted When Payments Were Missed



           December 31, 2010. We reviewed each case to determine if FTD Alert policies and
           procedures were consistently followed, business taxpayers were contacted in a timely
           manner, overall processing time (from receipt to closure) was appropriate, and
           business taxpayers remained in compliance.
           The sample selected was based on random sampling techniques using random case
           selection from a population of 22,327 FTD Alert priority code A and B cases, and
           134,192 FTD Alert priority code C cases. The sample selection of 96 FTD Alert
           priority code A and B cases, and 96 FTD Alert priority code C cases was each based
           on a confidence level of 95 percent, a ±10 percent precision level, and an expected
           error rate of 50 percent. The Treasury Inspector General for Tax Administration
           contract statistician was consulted throughout the development and selection of this
           sample.
           Validity and reliability of data from computer-based systems: We obtained IRS
           business taxpayer FTD Alert data and data on business taxpayers affected by the
           electronic payment requirements. We matched these data to data processed by the
           IRS and stored on the Treasury Inspector General for Tax Administration Data Center
           Warehouse. We compared the data to information processed and stored in the
           Business Master File. We used the Business Taxpayer Identification Number as the
           control to validate the accuracy of the matching of the tax return information stored
           on the Business Master File and the Integrated Data Retrieval System. These data
           were sufficiently reliable to perform our audit analyses.
Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objective: SB/SE Division policies, procedures, and
practices for processing and working FTD Alerts. We evaluated these controls by reviewing
source materials, interviewing management, reviewing a sample of FTD Alerts and related
Integrated Collection System case files, and researching business taxpayer accounts.




                                                                                         Page 10
                     Business Taxpayers Were Effectively Transitioned to
                    Electronic Payments; However, They Were Not Always
                       Timely Contacted When Payments Were Missed



                                                                             Appendix II

                 Major Contributors to This Report

Margaret E. Begg, Assistant Inspector General for Audit (Compliance and Enforcement
Operations)
Carl Aley, Director
Glen J. Rhoades, Audit Manager
Christina Dreyer, Lead Auditor
Michael A. Garcia, Lead Auditor
Doris A. Cervantes, Senior Auditor
Brian Foltz, Auditor
Joseph L. Katz, Ph.D., Contractor, Statistical Sampling Consultant




                                                                                      Page 11
                    Business Taxpayers Were Effectively Transitioned to
                   Electronic Payments; However, They Were Not Always
                      Timely Contacted When Payments Were Missed



                                                                         Appendix III

                        Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Small Business/Self-Employed Division SE:S
Deputy Commissioner, Wage and Investment Division SE:W
Director, Campus Compliance Services, Small Business/Self-Employed Division SE:S:CCS
Director, Collection, Small Business/Self-Employed Division SE:S:C
Director, Filing and Payment Compliance, Wage and Investment Division SE:W:CP:FPC
Director, Submission Processing, Wage and Investment Division SE:W:CAS:SP
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
       Commissioner, Small Business/Self-Employed Division SE:S
       Commissioner, Wage and Investment Division SE:W




                                                                                 Page 12
                      Business Taxpayers Were Effectively Transitioned to
                     Electronic Payments; However, They Were Not Always
                        Timely Contacted When Payments Were Missed



                                                                                 Appendix IV

                               Outcome Measures

This appendix presents detailed information on the measurable impact that our recommended
corrective actions will have on tax administration. These benefits will be incorporated into our
Semiannual Report to Congress.

Type and Value of Outcome Measure:
   Taxpayer Burden – Potential; 1,861 business taxpayers affected (see page 5).

Methodology Used to Measure the Reported Benefit:
We selected a random statistical sample of 96 FTD Alert priority code A and B cases from the
total population of 22,327 cases issued between January 1, 2009, and December 31, 2010. We
selected this type of sample so that we could project our results to the population of FTD Alerts
for this time period. In eight (8.3 percent) of the 96 FTD Alert priority code A and B cases, the
business taxpayer was not contacted within 15 calendar days of the FTD Alert being assigned to
an RO.
To project the results of our statistical sample, we used a 95 percent confidence level, an
8.3 percent error rate, and a 5.55 percent precision factor. Based on these parameters,
1,861 business taxpayers with FTD Alert priority codes A and B issued between
January 1, 2009, and December 31, 2010, may not have been contacted by the IRS within
15 calendar days of being assigned to an RO (the projected range is from 622 to 3,099 business
taxpayers).

Type and Value of Outcome Measure:
   Taxpayer Burden – Potential; 3,954 business taxpayers affected (see page 5).

Methodology Used to Measure the Reported Benefit:
We selected a random statistical sample of 96 FTD Alert priority code A and B cases from the
total population of 22,327 cases issued between January 1, 2009, and December 31, 2010. We
selected this type of sample so that we could project our results to the population of FTD Alerts
for this time period. In 17 (17.7 percent) of the 96 FTD Alert priority code A and B cases, the
FTD Alert was assigned to an RO an average of 29 calendar days (ranged from 11 to 34 calendar
days) after the FTD Alert was issued.



                                                                                          Page 13
                      Business Taxpayers Were Effectively Transitioned to
                     Electronic Payments; However, They Were Not Always
                        Timely Contacted When Payments Were Missed



To project the results of our statistical sample, we used a 95 percent confidence level, a
17.7 percent error rate, and a 7.66 percent precision factor. Based on these parameters,
3,954 business taxpayers with FTD Alert priority codes A and B issued between
January 1, 2009, and December 31, 2010, may not have been contacted by the IRS within
15 calendar days of being assigned to an RO (the projected range is from 2,244 to 5,664 business
taxpayers).




                                                                                        Page 14
                       Business Taxpayers Were Effectively Transitioned to
                      Electronic Payments; However, They Were Not Always
                         Timely Contacted When Payments Were Missed



                                                                                    Appendix V

                                 Glossary of Terms

Business Master File – The IRS database that consists of Federal tax-related transactions and
accounts for businesses. These include employment taxes, income taxes on businesses, and
excise taxes.
Campus – The data processing arm of the IRS. The campuses process paper and electronic
submissions, correct errors, and forward data to the Computing Centers for analysis and posting
to taxpayer accounts.
Collection Field Function – The unit in the Area Offices consisting of the ROs who handle
personal contacts with taxpayers to collect delinquent accounts or secure unfiled returns.
De Minimus – A Latin phrase meaning “concerning minimal things.” It usually refers to a
difference being so small or minimal that the law does not take it into consideration.
Electronic Federal Tax Payment System – The system designed to process Federal tax
deposits and other types of business and individual payments.
Employment Tax Returns – Various Form 940 return series (primarily Form 940, Employer’s
Annual Federal Unemployment (FUTA) Tax Return, and Form 941, Employer’s QUARTERLY
Federal Tax Return ) filed by businesses to report things such as employer’s Federal
unemployment taxes and Federal taxes withheld.
Federal Tax Deposit – Tax payment deposits made up of taxes withheld from employees’
salaries (trust fund) and the employer’s share (Federal Insurance Contributions Act taxes - Social
Security and Medicare), along with taxes paid by the employer to provide for unemployment
compensation to workers who have lost their jobs. These taxes need to be paid as they become
due in order to avoid penalties.
Federal Tax Deposit Alert – A process that identifies at an early stage, i.e., before the return is
due, business taxpayers who have fallen behind in their tax payment deposits.
Fiscal Year – A 12-consecutive-month period ending on the last day of any month, except
December. The Federal Government’s fiscal year begins on October 1 and ends on
September 30.




                                                                                            Page 15
                       Business Taxpayers Were Effectively Transitioned to
                      Electronic Payments; However, They Were Not Always
                         Timely Contacted When Payments Were Missed



Integrated Collection System – An information management system designed to improve
revenue collections by providing the ROs access to the most current taxpayer information, while
in the field, using laptop computers for quicker case resolution and improved customer service.
Integrated Data Retrieval System – An IRS computer system capable of retrieving or updating
stored information; it works in conjunction with a taxpayer’s account records.
Master File – The IRS database that stores various types of taxpayer account information. This
database includes individual, business, and employee plans and exempt organizations data.
Revenue Officer – Employees in the Collection Field function who attempt to contact taxpayers
and resolve collection matters that have not been resolved through notices sent by the IRS
campuses or the Automated Collection System.
Soft Letter Notice – Soft Letter (or Soft Notice) is a written notice from the IRS that requires no
action on the taxpayer’s part but encourages the taxpayer to check his or her return for errors,
serving as an educational tool and improving voluntary compliance.
Tax Period – Refers to each tax return filed by the taxpayer for a specific period (year or
quarter) during a calendar year for each type of tax.
Telephone Assistors – A group of assistors who have received specialized training to assist
taxpayers with specific tax issues. Telephone assistors answer taxpayer questions involving tax
law and tax account conditions such as refunds, balance due billing activity, and changes to the
amount of tax owed.




                                                                                              Page 16
       Business Taxpayers Were Effectively Transitioned to
      Electronic Payments; However, They Were Not Always
         Timely Contacted When Payments Were Missed



                                                  Appendix VI

Management’s Response to the Draft Report




                                                         Page 17
 Business Taxpayers Were Effectively Transitioned to
Electronic Payments; However, They Were Not Always
   Timely Contacted When Payments Were Missed




                                                   Page 18
 Business Taxpayers Were Effectively Transitioned to
Electronic Payments; However, They Were Not Always
   Timely Contacted When Payments Were Missed




                                                   Page 19
